Audit Report

Office of Justice Programs 
Four Grants Awarded to the Lummi Indian Nation, 
Grant Number 1996-WI-NX-0007,
Grant Number 2002-DC-BX-0066,
Grant Number 2002-IC-BX-0019,
Grant Number 2002-TY-FX-0004,
Bellingham, Washington

Audit Report No. GR-90-05-004


December 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of four grants, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), to the Lummi Indian Nation (Lummi Nation).  Each grant has a different purpose and was awarded by a different OJP Program Office.  The four grants include:  STOP Violence Against Indian Women Discretionary Grants Program from the Violence Against Women Office; Tribal Drug Court Grant Program from the Drug Courts Program Office; Tribal Court Enhancement Project from the Bureau of Justice Assistance; and the Tribal Youth Program from the Office of Juvenile Justice and Delinquency Prevention.  As of September 30, 2003, the Lummi Nation was awarded a total of $1,578,983 for the four grants we audited.  

We tested the Lummi Nations accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. 

Of the $1,218,5851  expended as of June 30, 2004, we tested transactions totaling $258,850.2   We reviewed the Lummi Nations four grants to determine if they were in compliance with OJP grant requirements.  Our audit revealed that the Lummi Nation did not maintain adequate controls over the accounting process and did not maintain adequate records relating to the four grants we reviewed.  We found the Summary General Ledger to be materially misstated and the Financial Status Reports (FSRs) to be highly inaccurate.  The Lummi Nation failed to file 15 of the 30 progress reports it was required to file with the OJP.  The grantee was able to reconstruct most FSRs and all of the Summary General Ledgers while we were on site.  Using the reconstructed records, we then determined that most costs claimed for reimbursement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  However, we identified $9,805 in unallowable costs that the grantee charged to the supply account.  In brief, we found:

Of the 57 FSRs submitted to the OJP for the 4 grants under review, only 27 were submitted within the 45-day deadline.  None of the      57 FSRs we reviewed accurately reflected expenditures charged to the grants. 

	Of the 30 progress reports due to the OJP for all 4 grants we reviewed, the grantee submitted only 4 reports on time.  We noted that the Lummi Nation submitted 11 reports late and failed to submit 15 progress reports to OJP at all.

	For Grant 1996-WI-NX-0007 the grantee charged the supply account with expenditures totaling $2,173 that were not authorized in the grant budget.

	For Grant 2002-DC-BX-0066 the grantee charged the supply account with expenditures totaling $2,315 that were not authorized in the grant budget.

	For Grant 2002-TY-FX-0004 the grantee charged the supply account with expenditures totaling $5,317 that were not authorized in the grant budget.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.
   



Footnotes

Individual grant expenditures were as follows: Grant 1996-WI-NX-0007 $600,373; Grant 2002-DC-BX-0066 $229,152; Grant 2000-IC-BX-0019 $208,823; and Grant 2002-TY-FX-0004 $180,237.

	The amounts were tested for each individual grant were: Grant 1996-WI-NX-0007 $30,086; Grant 2002-DC-BX-0066 $45,670; Grant 2002-IC-BX-0019 $119,036; and Grant 2002-TY-FX-0004 $64,058.